2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-7
SEILA LAW LLC,
Petitioner,

Vv.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of July, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE LANDMARK LEGAL
FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been

served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
MATTHEW C. FORYS RICHARD P. HUTCHISON
MICHAEL J. O’NEILL Counsel of Record
LANDMARK LEGAL LANDMARK LEGAL
FOUNDATION FOUNDATION
19415 Deerfield Ave. 3100 Broadway
Suite 312 Suite 1210

Leesburg, VA 20176
703-554-6100

Kansas City, MO 64111
816-931-5559

816-931-1115 (Facsimile)
pete.hutch@
Jandmarklegal.org

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 29th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
ce Dbl h, hl
State of Nebraska ‘,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38383
 

Attorneys for Petitioner

Kannon K. Shanmugam
Counsel of Record

Paul, Weiss, Rifkind, Wharton & Garrison LLP (202) 223-7300
2001 K Street, N.W.
Washington, DC 20006

kshanmugam@paulweiss.com

Party name: Seila Law LLC

 

 

Attorneys for Respondent

Noel J. Francisco
Counsel of Record

Solicitor General 202-514-2217
United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Consumer Financial Protection Bureau

 

 
